            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION




         BEST PRACTICES IN
          FEDERAL PAPER
       RECORDS MANAGEMENT

       June 2003   A-04-03-13030




MANAGEMENT ADVISORY
      REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:       June 23, 2003

To:         The Commissioner

From:       Inspector General

Subject: Best Practices in Federal Paper Records Management (A-04-03-13030)



        OBJECTIVE

        The objective of our review was to identify best practices that may enable the Social
        Security Administration (SSA) to enhance its paper records management.

        BACKGROUND

        Recent technological advances, budget cuts, and other events have significantly
        impacted Federal records management. In today’s business environment, a Federal
        agency's success or failure can depend on how well it manages its records.1

        The Federal Records Act of 1950, as amended, established the framework for records
        management programs in Federal agencies. Federal law “requires [t]he head of each
        Federal agency…[to] make and preserve records containing adequate and proper
        documentation of the organization, functions, policies, decisions, procedures, and
        essential transactions of the agency and designed to furnish the information necessary
        to protect the legal and financial rights of the Government and of persons directly
        affected by the agency's activities.”2 The National Archives and Records Administration
        (NARA) is responsible for assisting Federal agencies in maintaining adequate and
        proper documentation of Government policies and transactions.3




        1
          Within the context of this report, the term record is the product of a business transaction in which
        information is exchanged or acted upon.
        2
            44 U.S.C. § 3101 and 36 CFR § 1220.
        3
         NARA is an independent Federal agency, authorized under 44 U.S.C. § 2101 et seq., whose mission
        ensures, for the citizen and the public servant, for the President and Congress and the Courts, ready
        access to essential evidence.
Page 2 – The Commissioner

SSA's Records Officer, who heads the Records Management Team (RMT), is
responsible for planning, directing, administering and evaluating the Agency's records
management program.4 To assist the Records Officer, SSA has designated Records
Management Coordinators at central and regional offices. These coordinators act as
liaisons for records management activities between their offices and the Records
Management Team.

SCOPE
This review is aimed at enhancing SSA's paper records management and focuses on
best practices used by those Federal agencies that are in the forefront of records
management. We visited the following three agencies to obtain knowledge and observe
their paper records management practices:

•   the Central Intelligence Agency (CIA),

•   the Federal Deposit Insurance Corporation (FDIC), and

•   the National Labor Relations Board (NLRB).

We selected these agencies because records management experts from NARA and a
member of the Federal Information and Records Managers Council recognized them as
having best practices in paper records management.

We performed our work at SSA Headquarters in Baltimore, Maryland, the Southeastern
Program Service Center and field office in Birmingham, Alabama, and selected Federal
agencies in Washington, D.C. We conducted our review from September through
November 2002 in accordance with generally accepted government auditing standards.
See Appendix A for a more complete description of our scope and methodology.

RESULTS OF REVIEW
Although the Government, as a whole, is generally successful in searching for and
retrieving its paper records, this process can require substantial effort and resources.
Despite its move toward electronic records storage, SSA continues to be responsible for
millions of paper files. SSA is working to improve its management of paper records.
The best practices we identified in the Government sector have the potential for use in




4
 SSA's Records Officer and Records Management Team are located organizationally under the Deputy
Commissioner for Finance, Assessment and Management.
Page 3 – The Commissioner

SSA’s records management operations. For example, SSA may be able to improve its
paper records management through the following.

•   Active Records Management that ensures maximum oversight authority, sufficient
    resources, and adequate technical expertise.

•   Quality Control and Monitoring of records management via on-site reviews.

•   Centralized Storage and Automated Tracking System to measure the timeliness
    of folder movement.

•   Training program on detailed records management.

•   NARA's Targeted Assistance Program for assistance in planning and
    implementing new records initiatives.

THE STATE OF RECORDS MANAGEMENT WITHIN THE
GOVERNMENT

In December 2001, SRA International, Inc., (SRA) reported on recordkeeping
perceptions and practices at selected Federal agencies.5 Overall, SRA reported that
the character and quality of records management varied significantly across—and
within—agencies. SRA noted that, despite the explosive growth in electronic records,
paper remains the primary format for preserving records Governmentwide. Although
the Government is generally successful in searching for and retrieving paper records,
the process requires substantial resources. SRA determined that the best
recordkeeping practices tended to exist for case files since they have a well-defined,
business-related purpose.6 Similarly, agencies with good, conscientious records
management programs recognize that poor records management can lead to adverse
legal judgments, unwanted legislation, and/or public embarrassment.

RECORDS MANAGEMENT CHALLENGES WITHIN SSA

SSA's case folder volume poses significant challenges for the Agency. SSA houses
over 35 million folders, many of which are used by operating components nationwide.
Although SSA is moving toward electronic records storage, it will continue to be
responsible for millions of paper files. Appendix B provides an overview of SSA's record
storage and retrieval processes. Like other Federal agencies, SSA has many
5
 Report on Current Recordkeeping Practices Within the Federal Government, December 10, 2001.
NARA commissioned SRA to conduct a study of recordkeeping perceptions to complement its own
Records System Analyses of recordkeeping practices.
6
 A case file is defined as records, regardless of media, that document a specific action, event, person,
place, project, or other matter.
Page 4 – The Commissioner

competing business priorities that affect the resources available to ensure effective
records management. Nevertheless, ineffective records management practices can
harm Agency operations as well as beneficiaries who rely on SSA.

PricewaterhouseCoopers LLP, in its audits of SSA's financial statements for Fiscal
Years 1998 through 2000, underscored the importance of case files to SSA's operations
and recommended the Agency continue with such initiatives as electronic imaging.
Until such imaging is in place, PricewaterhouseCoopers recommended SSA enhance
its process for tracking and securing case files. Similarly, we have stressed the
importance of good case folder management and recommended that SSA increase its
oversight of records management contractors.7

BEST PRACTICES
The Federal agencies we reviewed recognize that lost or untimely retrieved records
undermine an agency's integrity and impair its ability to achieve its mission. As a result,
these agencies follow practices that result in efficient and effective paper records
management. We particularly noted that the Federal agencies we contacted have
benefited by adopting the five best practices identified in Table 1.

    Table 1: Best Practices

                                       Active Records Management

                                       Quality Control and Monitoring

                                       Centralized Storage and Automated Tracking System

                                       Training

                                       NARA's Targeted Assistance Program


We acknowledge that SSA management endorses and has implemented some aspects
of these practices and are encouraged that SSA continues to refine and improve its
records management. Records managers we contacted emphasized that
management’s commitment to sound records operations is essential for the successful
implementation of these practices.




7
 Case Folder Storage and Retrieval at the Social Security Administration's Megasite Records Center
(A-04-99-62006) issued in August 2002.
Page 5 – The Commissioner




              Active Records Management

Records managers from the agencies we contacted emphasized that their components
must provide oversight throughout the records’ life cycle, which includes the creation,
maintenance, and disposition of paper records. These agencies also recommended
that records management closely coordinate with operations personnel in planning new
initiatives, developing records retention schedules, and managing records stored in off-
site locations.

Federal law requires that Federal agencies establish and maintain an active, continuing
program for managing its records. Moreover, a records program must provide for
effective controls over the creation, maintenance, and use of records in conducting
business.8 Although Federal law and agency policies require sound records
management, the successful implementation of such practices is still elusive for many
agencies.

In its December 10, 2001 Report on Current Recordkeeping Practices Within the
Federal Government, SRA maintained that the quality of records management is heavily
influenced by the degree to which an agency's records officer and staff are involved in
their agency's principal business programs. However, the perception of records
management personnel is that integration between records management and the
business processes of many agencies is distinctly lacking.

Although records management typically receives a low priority, problems in this area
can have serious implications for an agency. For example, in the Oklahoma City
bombing investigation, it became evident that the Federal Bureau of Investigation (FBI)
had problems in its records management system. After acknowledging the problem, the
FBI responded by becoming proactive in its records management oversight. The
management initiatives the FBI implemented include the following.

•     Creating a Records Management Division to ensure executive direction and full-
      time oversight of all records policy and functions.

•     Consolidating all records operations to ensure consistency, thoroughness and
      accountability.

•     Retraining every employee on proper document production, maintenance and
      handling procedures.




8
    44 U.S.C. § 3102.
Page 6 – The Commissioner

•     Modernizing its information technology system by moving toward a near paperless
      electronic case file.




              Quality Control and Monitoring

The quality control plan outlined by an agency’s records management team should be
continually monitored. The agencies we contacted practiced effective quality control
and monitoring. To illustrate, one agency described how it routinely visited its off-site
storage locations to audit its contractor’s procedures. Also, this agency monitored the
quantity of records created, the response time for providing records and the number of
records destroyed or sent to the National Archives.

Federal regulations state that agency records management programs should provide for
periodic internal evaluations. These evaluations, among other things, should assess
the effectiveness of the agency’s records management program.9 NARA personnel
stressed quality control should not be regarded as a “one time fix.” Instead, systems
and processes must be constantly observed and refined to maintain and improve an
agency’s records management program. One of the Federal agencies we reviewed, as
part of its quality control program, revalidated its record inventory every 2 years at the
central storage facility and satellite locations.

When an agency fails to implement an effective quality control and monitoring program,
there can be negative consequences. Again, we refer to the FBI’s Oklahoma City
bombing investigation. The agency belatedly discovered over 3,100 pages of records it
failed to provide to defense lawyers during the Oklahoma City bombing trial. An
Inspector General's investigation attributed the missing documents in part to inadequate
quality control systems. As a result, the FBI implemented new quality control policies
and procedures.10




              Centralized Storage and Automated Tracking System

The agencies we contacted managed their records using centralized storage facilities to
minimize case folder movement and the risk of lost records. While some situations
necessitate case folder movement, such as legal proceedings, the agencies strive to
keep official records at one or two locations. In its December 2001 report, SRA stated

9
    36 CFR § 1220.42.
10
   Federal Computer Week, FBI hot on records management case, July 8, 2002,
http://www.fcw.com/fcw/articles/2002/0708/news-fbi-07-08-02.asp.
Page 7 – The Commissioner

one factor that indicated good records management was whether an agency managed
its records in a centrally coordinated manner. Agencies in SRA's study that centrally
coordinated the management of their records appeared to be able to locate their
records better than agencies that managed their records in a decentralized manner.
The records managers we talked with emphasized that (1) minimizing file movement is
critical in maintaining effective records operations and (2) centralized storage is
essential to minimizing file movement.

Agencies we contacted also used automated record tracking systems in conjunction
with centralized storage facilities. These systems allow agencies to determine (1) the
location of a record at any time, (2) whether the case is active or archived, and (3) how
long it takes to retrieve and deliver a folder to the user. To facilitate data entry into their
automated tracking systems, the agencies implemented bar-coding systems. The
Agencies bar-coded their records and installed bar-code reading devices at their
storage facilities and at user locations throughout the agency. The bar-coded records
are scanned at the centralized storage facility as well as the agency components to
record every receipt and transfer of records.

A benefit of logging the receipt of a folder at an agency component is that, when a
record is sent to a wrong location, it can be quickly identified and forwarded to its
intended destination. One of the agencies we contacted tracked how long folders were
“checked out” of the central storage facility and followed up on outstanding folders.
Another agency endorsed the concept of producing an “aging” report to measure
response times in the folder retrieval process. The Records Manager at this agency
stated monitoring and responding to an aging report is "not unlike a librarian checking
on overdue books."

To minimize case folder movement, one of the agencies we contacted used an
electronic database that enabled the user to search abstracts of certain records for
relevant information. The record abstract is described as a list of key words and
information, such as names, biographical information, and critical decision data. The
agency used optical character recognition technology to generate the abstract from the
paper record. The abstract enables the user to obtain key information without physically
retrieving the folder.




           Training

The Federal agencies we contacted stressed the importance of adequately trained staff
in achieving and maintaining an efficient and effective paper records handling process.
For example, one of the actions the FBI took to improve its records management
program was to retrain employees on proper document production, maintenance and
Page 8 – The Commissioner

retrieval/handling procedures. One of the agencies we contacted had a detailed
records management training plan that included:

•   orientation to records management concepts and agency procedures,

•   rotation of job duties to give employees the opportunity to experience all facets of
    the records operations,

•   suggested courses of study for records industry certifications,

•   developmental plans tailored to the employees' needs,

•   provisions for membership in professional records management organizations, and

•   mechanisms for measuring the skills and knowledge related to records operations.

Training employees reduces the risk of errors and helps ensure consistency in the
application of agency policies and procedures.




           NARA’s Targeted Assistance Program

One Federal agency we contacted strongly endorsed using NARA’s expert guidance
and assistance in designing and refining Federal records management systems. In
particular, this agency encouraged participation in NARA’s Targeted Assistance
program. This program forms a partnership between NARA and Federal agencies to
address paper and electronic records management issues. As part of this service,
NARA coordinates with an agency’s records management staff to provide effective
training of operations personnel.

In its December 2001 report, SRA stated the level of communication and interaction
between agencies and NARA influenced the quality of agency records management,
particularly in the area of records retention scheduling. NARA implemented the
Targeted Assistance program to better meet agencies’ needs and assist those agencies
in transitioning from a paper-based to an electronic record management system.
Federal agencies nationwide participate in the Targeted Assistance program, and
NARA has over 200 ongoing projects with these agencies.
Page 9 – The Commissioner

CONCLUSIONS AND RECOMMENDATIONS
We believe the best practices identified in this report may enhance SSA's paper records
management. The success realized by the agencies we contacted warrants SSA’s
consideration of these best practices. Additionally, we recognize it may not always be
practical or cost-beneficial to implement the best practices of other organizations.
Therefore, as part of its evaluation process, SSA should determine whether it will
benefit from adopting any or all of these practices. We have matched these best
practices to our understanding of SSA’s operations and have identified several potential
applications that we believe management should consider. Therefore, we recommend
that SSA consider the following.

1. Re-evaluate the organizational placement of its Records Officer and team to ensure
   maximum oversight authority, sufficient resources, and adequate technical expertise,
   such as representation of systems personnel.

2. Incorporate reviews of record management controls into its Onsite Security Control
   and Audit Review Program.11

3. Enhance its automated tracking systems by producing reports to track the timeliness
   of folder movement, how long a folder has been with a user, and any other folder
   movement anomalies.

4. Create electronic record abstracts that would contain a synopsis of critical document
   information that could be used in lieu of obtaining the paper case folder, allowing
   users to quickly obtain needed information and minimizing case folder movement.

5. Increase coordination with NARA in the planning and implementation of new paper
   or electronic record initiatives.

AGENCY COMMENTS
SSA generally agreed with Recommendations 2, 3, and 5. With regards to
Recommendation 1, SSA stated that the RMT has an active role in all Agency system
initiatives and works closely with staff on paper and electronic records issues.
Therefore, SSA believes the organizational placement of the RMT is correct. In
response to Recommendation 4, SSA stated that electronic record abstracts would
have limited value and may have significant costs. The full text of SSA’s comments is
included in Appendix C.




11
 These reviews are part of SSA’s management control process established under the Federal
Managers’ Financial Integrity Act for evaluating, improving and reporting on management controls.
Page 10 – The Commissioner

OFFICE OF INSPECTOR GENERAL RESPONSE
We appreciate SSA's consideration of the RMT’s organizational placement. We
encourage SSA to periodically monitor the team to ensure it has the proper oversight
authority, sufficient resources, and adequate technical expertise.

We continue to believe that electronic record abstracts would be beneficial for both
SSA’s paper and electronic records processes. One Federal agency we visited applied
the best practice of electronic abstracts to both paper and electronic records, which
improved its records retrieval process. An electronic abstract is beneficial because it
condenses a lengthy document into key points and enables the user to access
information in a timely manner without having to retrieve or search an entire case folder
or electronic record. We urge SSA to explore the benefits of electronic abstracts as it
transitions to the electronic folder. We also encourage SSA to consider the benefits of
abstracts as it creates new paper records.




                                            James G. Huse, Jr.
                                   Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – The Social Security Administration's Records Storage and Retrieval
             Processes

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                Appendix A
Scope and Methodology
To meet our objective, we performed the following steps.

•   Obtained an understanding of the Social Security Administration’s (SSA) paper
    records processes and basic business functions. We interviewed records
    management and operational components at SSA’s Central Office and personnel at
    the Southeastern Program Service Center and Birmingham, Alabama, field office.

•   Interviewed leading experts in the field of records management to identify Federal
    agencies that were successful in the area of records management.

•   Visited three Federal agencies to obtain knowledge of, and observe, their record
    management practices. See Table 1 for the agencies and brief descriptions of their
    missions.

•   Determined whether the best practices we identified were potentially beneficial to
    SSA, by either enhancing procedures already in place or implementing new
    procedures.

                             Table 1: Description of Agencies Contacted

               Agency                                             Mission
      Central Intelligence         The CIA's mission is to support the President, the National Security
      Agency (CIA)                 Council, and all who make and execute U.S. national security policy.
                                   The CIA accomplishes this by providing accurate, evidence-based,
                                   comprehensive, and timely foreign intelligence related to national
                                   security and conducting counterintelligence activities, special
                                   activities, and other functions related to foreign intelligence and
                                   national security as directed by the President.

      Federal Deposit              The FDIC's mission is to maintain the stability of, and public
      Insurance Corporation        confidence in, the Nation's financial system. The FDIC was created
      (FDIC)                       in 1933 to insure deposits and promote safe and sound banking
                                   practices.

      National Labor Relations     The NLRB is an independent Federal agency created in 1935 to
      Board (NLRB)                 enforce the National Labor Relations Act. The agency investigates
                                   and attempts to remedy unfair labor practices by employers and
                                   unions.
                                                                       Appendix B

The Social Security Administration’s Records
Storage and Retrieval Processes
In administering its Old-Age and Survivors Insurance (OASI), Disability Insurance (DI),
and Supplemental Security Income (SSI) programs, the Social Security Administration
(SSA) uses paper and on-line electronic systems to document its customer applications.
SSA retains applicant information in paper folders and master electronic files. The
Agency's policies, procedures and standards for records retention and disposition are in
its Administrative Instructions Manual System.

In general, SSA components need case folders to handle a variety of actions that affect
eligibility and/or payment amounts. Case folders typically contain detailed information
about individual’s earnings and financial resources. In processing DI claims, SSA
personnel rely on medical and earnings information contained in potentially large paper
folders. Folders for DI claims may move between SSA offices depending on the stage
of the claims process—initial claim, appeal, and continuing disability review.

SSA components request case folders through automated systems. As an option to
requesting the entire case folder, they can request SSA personnel at the storage
location to extract and send the needed information. If this is not practical, the case
folder is mailed. SSA stores over 35 million case folders at 3 facilities. Although these
are SSA facilities, private contractors provide for the day-to-day operations. The
facilities and a brief description of their storage responsibilities are below.

•   The National Records Center in the Kansas City region stores OASI and DI awards
    for individuals age 55 and older and maintains about 25 million folders.

•   The Office of Central Operation's Megasite in Woodlawn, Maryland, stores OASI and
    DI awards for individuals below age 55 and maintains between 5 and 10 million
    folders.

•   The Folder Servicing Operation in Wilkes-Barre, Pennsylvania, stores SSI awards,
    and maintains between 4 to 5 million folders.

SSA also stores folders in Federal Records Centers (FRC) operated by the National
Archives and Records Administration. The FRCs store folders that have the lowest
activity (for example, disability denials where no appeal is anticipated) and SSI material
received after the initial award.

As of the time of this audit, SSA scanned OASI documents and made these available to
employees in electronic format. SSA is developing an electronic business process for
disability claims, with the implementation goal of Calendar Year 2004.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM                                                                                 32239-24-956


Date:     May 13, 2003                                                              Refer To: S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry W. Dye /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Management Advisory Report, “Best Practices in
:         Federal Paper Records Management” (A-04-03-13030)—INFORMATION


          We appreciate the OIG's efforts in conducting this review. Our comments on the report content
          and recommendations are attached.

          Please let us know if we can be of further assistance. Staff questions can be referred to
          Trudy Williams on extension 50380.

          Attachment:
          SSA Response




                                                          C-1
REVISED COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA)
ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT MANAGEMENT
ADVISORY REPORT, “BEST PRACTICES IN FEDERAL PAPER RECORDS
MANAGEMENT” (A-04-03-13030)


Thank you for the opportunity to review and comment on the subject draft report. Within SSA,
our records management policies and procedures are consistent with the National Archives and
Records Administration (NARA). These policies and procedures are defined in the
Administrative Instructions Manual System (AIMS) Guidelines, Records Management
Handbooks, in the Records Retention Schedules and by our Records Management Coordinators
(RMC) who are located in all major components nationwide. The policies, retention schedules
and a list of all RMCs are available to all SSA employees via SSA’s Digital Library. In addition,
as part of our ongoing efforts to ensure proper records management, the RMCs and members of
SSA’s Records Management Team (RMT) randomly select and visit at least five sites each year.
The site visit reports identify deficiencies and stipulate the corrective measures to be taken. In
addition, the RMT is working with other SSA components to expand its audits/reviews of
records management practices throughout the Agency.

In addition to the ongoing records management program elements described above, an SSA
intercomponent steering committee was formed to oversee all projects related to SSA's transition
to an electronic-folder. The groups’ charter calls for the development of a vision and timeframe
for the transition from paper folders to electronic folders and to ensure that the myriad of
initiatives are integrated. The key initiatives fall in seven broad categories including Claims
Folder Content, Electronic Signature, Authentication, Retention Schedules, Electronic Forms,
Internet Applications and Privacy & Access. The Operational Records Management
Initiatives/Procedures Committee briefed the Commissioner in February 2003 and will continue
to report to her as the initiatives develop.
Finally, we have the E-Records Management Initiative whose purpose is to fulfill one of the
primary directives in the President’s Management Agenda focusing on “e-Government.” SSA’s
Chief Information Officer chairs the workgroup that reports on all e-Government activities
within SSA.

Our responses to the specific recommendations are provided below.


Recommendation 1

SSA should re-evaluate the organizational placement of its Records Officer and team to ensure
maximum oversight authority, sufficient resources, and adequate technical expertise, such as
representation of systems personnel.




                                               C-2
SSA Comment

We disagree. We recognize that records management issues have increased in complexity in
recent years as more and more of the Agency's records move from paper to electronic format.
The Agency’s RMT has an active role in all major Agency systems initiatives, including projects
such as the Commissioner's Assignment and Correspondence Tracking System and AeDIB. The
RMT ensures that all records-related guidance and directives provided by NARA are followed
and works closely with staff within the Agency to address all paper and electronic records issues.
We believe the organizational location of the RMT is correct.

Recommendation 2

SSA should incorporate reviews of record management controls into its Onsite Security Control
and Audit Review (OSCAR) program.

SSA Comment

We partially agree. In addition to the field surveys conducted by the RMC and the RMT
described above, we plan to expand reviews of records management in the field offices and are
considering using the OSCAR to elicit information on records management practices from 10 to
20 percent of SSA’s field offices.

Recommendation 3

SSA should enhance its automated tracking systems by producing reports to track the timeliness
of folder movement, how long a folder has been with a user and any other folder movement
anomalies.

SSA Comment

We partially agree. The Processing Center (PC) users already have the ability to obtain this
information and produce reports by using the offline parametric searches of the Processing
Center Action Control System (PCACS). For instance, PCs can track folder records by a
specific component (e.g., Module 1), function (e.g., Claims Authorizer) and station within each
site. Based on this tracking, specifics such as the age and/or Social Security Number range or
terminal digit can be obtained. In addition, record element conditions such as record type
descriptors, folder listing codes or Federal Record Center codes can be identified. Date elements
such as current site date or hold date can also be extracted from this parametric capability. The
PCs also have various sort options from site age to terminal digit. Output options, such as counts
only, full or standard queries as well as scheduling and report frequency, are also available for
the sites to customize their reports. Processing Center number seven, located in the Office of
Disability Operations, uses the offline parametric report to account for all folder control records
reading in location Auxiliary Rolling Heights, Files-In, Files-In (AUXRH FIN FIN) with a
special event indicator of AGE 59. We will encourage the PCACS users to make use of these
reports to track folder movement and anomalies.


                                               C-3
Recommendation 4

SSA should create electronic record abstracts that would contain a synopsis of critical document
information that could be used in lieu of obtaining the paper case folder, allowing users to
quickly obtain needed information and minimizing case folder movement.

SSA Comment

We disagree. The PCs process approximately 80 percent of their actions in a paperless
environment. SSA is currently developing an electronic disability process that will use an
electronic folder in lieu of paper folders and will eventually eliminate the need to handle, store
and ship paper folders.

It appears the single additive benefit of this recommendation to electronic transfer of scanned
materials could be realized only if such abstracts were available to a user up front to determine if
the needed information is in fact in the file before requesting the scanning of the materials.
However, it is not clear from the report if OIG is recommending that SSA create electronic
abstracts for new files from a point in time forward, create abstracts for all existing files or create
abstracts for files only when retrieval is requested. Depending on the intent, this
recommendation could have significant associated costs.


Recommendation 5

SSA should increase coordination with NARA in the planning and implementation of new paper
or electronic record initiatives.

SSA Comment

We agree and have been working very closely with NARA over the past several months. NARA
representatives have made a number of site visits and have assisted us in drafting new records
schedules, including the new "Claims Processing System Schedule" which addresses electronic
initiatives, including AeDIB.




                                                 C-4
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, (816) 936-5591

   Frank Nagy, Deputy Director, Atlanta OA (404) 562-5552

Staff Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

   David McGhee, Auditor

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-04-03-13030.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
